<html>
<title> - [H.A.S.C. No. 113-7] THE FUTURE OF SEAPOWER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 
                          [H.A.S.C. No. 113-7] 
                         THE FUTURE OF SEAPOWER

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
79-949                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  
                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
                Tom MacKenzie, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                    Nicholas Rodman, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, February 26, 2013, The Future of Seapower...............     1

Appendix:

Tuesday, February 26, 2013.......................................    25
                              ----------                              

                       TUESDAY, FEBRUARY 26, 2013
                         THE FUTURE OF SEAPOWER
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Lehman, Hon. John, Former Secretary of the Navy..................     3
Roughead, ADM Gary, USN (Ret.), Former Chief of Naval Operations.     5

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    29
    Lehman, Hon. John............................................    31
    Roughead, ADM Gary...........................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    51

                         THE FUTURE OF SEAPOWER

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                        Washington, DC, Tuesday, February 26, 2013.
    The subcommittee met, pursuant to call, at 3:56 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I want to welcome all of our members and our 
distinguished panel of experts to today's hearing that will 
focus on the future of seapower in advance of receiving a 
budget request for fiscal year 2014.
    In January, the Navy presented to Congress a goal of 
achieving a fleet of 306 ships, a reduction from the previous 
goal of 313 ships. The fiscal year 2013-2017 5-year 
shipbuilding plan contains a total of 41 ships, which is 16 
ships less than the 57 ships projected for the same period in 
the fiscal year 2012 budget request. Of this 16-ship reduction, 
9 ships were eliminated and 7 ships were deferred to a later 
time. It should be noted that at its current strength of 286 
ships, under the 30-year shipbuilding plan submitted to 
Congress, the Navy will not achieve its goal of 306 ships until 
fiscal year 2039. And given our past record of meeting long-
term goals, I seriously question the viability of the 
shipbuilding plans presented in the out-years of the 30-year 
plan.
    Even worse, the Navy will experience shortfalls at various 
points in cruisers, destroyers, attack submarines, ballistic 
missile submarines, and amphibious ships. One would think the 
number of required ships would have increased instead of 
decreased with the Navy now bearing the brunt of missile 
defense missions and the announced rebalance to the Asia-
Pacific.
    Another area of concern is the cost of the plan. The 
Congressional Budget Office estimates that in the first 10 
years of the 30-year shipbuilding plan that the cost will be 11 
percent higher than the Navy's estimate. It is because of this 
issue of affordability that I agree with both Secretary Lehman 
and Admiral Roughead on the need for acquisition reform. While 
I think it is critical to provide an environment that provides 
industry some stability to achieve better pricing, I think it 
is equally important to pursue more effective acquisition 
strategies. I look forward to understanding what options our 
subcommittee could pursue to obtain this needed acquisition 
reform.
    In addition to new construction of ships, I also have 
concerns on the sustainment of ships already in the fleet. 
After years of maintenance challenges the Navy has now been 
forced to cancel numerous ship maintenance availabilities in 
the third and fourth quarters of this fiscal year due to the 
budgetary constraints of sequestration and the continuing 
resolution. The Navy has been operating in a sustained surge 
since at least 2004. We have been burning out our ships more 
quickly because the demand has been high. Indeed, in the past 5 
years roughly 25 percent of destroyer deployments have exceeded 
the standard deployment length.
    A key tenet in the shipbuilding plan is an assumed ship 
service life for most ships of 35 years. If ships do not get 
the planned shipyard repairs, attaining this service life will 
be problematic and ships will be retired prematurely.
    In fiscal year 2012, the existing force structure only 
satisfied 53 percent of the total combatant commander demand. 
It has been estimated that to fully support the combatant 
commander requirements would necessitate a fleet size in excess 
of 500 ships. Without an increase in force structure this trend 
would only get worse.
    Finally, I think that our Navy needs to place more emphasis 
on undersea warfare and long-range power projection as part of 
a strategy to prevent potential adversaries from achieving the 
benefits offered by anti-access/aerial denial strategies. I am 
particularly interested to better understand what options the 
subcommittee should consider to achieve these goals and ensure 
the combatant commanders have the right tools to achieve our 
national strategy.
    Today we are honored to have as our witnesses former 
Secretary of the Navy John Lehman and former Chief of Naval 
Operations Gary Roughead.
    Gentlemen, we thank you all for being here. We especially 
thank you both for your service. But even more than that, we 
thank you for coming to our subcommittee and sharing your 
wealth of experience and analysis of these issues. This is 
going to be the launch of what we hope will be a revitalization 
of United States Navy, and that will be in large part because 
of your contributions.
    And now I would like to recognize my friend, the ranking 
member, Mr. McIntyre, for any remarks he may have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    And thanks to both you gentlemen for your service and 
commitment and being here today. I am looking forward to 
hearing what you have to say with regard to the Navy's role 
protecting our national interest and how the Navy is going to 
be poised to meet these responsibilities in the coming years.
    In January, the Navy submitted a report to Congress stating 
that the Navy's new requirement for combatant vessels is 306 
ships. Accompanying that report was a new force structure 
assessment further breaking down the 306 requirement by ship 
class. The Navy has confirmed that the new requirement and 
assessment are based on the new strategic guidance released by 
the Department last year. But as I look at the new force 
structure assessment and compare that to the 30-year 
shipbuilding plan that was submitted last year, it appears to 
me that the two are not aligned, which is a concern. In the 30-
year plan it shows the Navy will not meet the requirement of 
306 ships until 2039.
    I would like the witnesses to share with us whether or not 
they believe the Navy is being properly resourced to meet what 
is being required. Given the recently announced pivot that we 
have to the Pacific and the expected drawdown of our ground 
forces elsewhere, the question is, should the overall 
Department shift more resources to the Navy in order to help 
support this new strategy while simultaneously accelerating the 
fleet size towards the 306 goal?
    As our witnesses know, I am sure, the Navy is currently 
operating at an operational tempo that is unsustainable. I 
would be interested to hear from our witnesses any suggestions 
that you have as to how one might mitigate the long-term 
impacts of a sustained surge that in recent years appears to 
become the norm.
    Thank you again for your service. Thank you for your time 
today.
    And thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Congressman McIntyre.
    And, gentlemen, as we talked about before, we are not going 
to give you guys a timeframe because we appreciate you being 
here and what you have to offer. You are welcome to just to 
submit your written testimony for the record if you would like 
and then anything you would like to tell us we are anxious to 
hear.
    So, Mr. Secretary, I believe you are going to start off for 
us and we give you the floor.

  STATEMENT OF HON. JOHN LEHMAN, FORMER SECRETARY OF THE NAVY

    Mr. Lehman. Well, thank you, Mr. Chairman. It is a real 
pleasure and an honor to be back in front of this historic 
committee. I must have spent 200 or 300 hours in my 6 years as 
SecNav [Secretary of the Navy] in this chair when Charlie 
Bennett was in your chair. And it was a real partnership, the 
600-ship Navy was a genuine partnership between the Congress 
and the Administration in developing the strategy and 
implementing the programs.
    I think that the most important historic accomplishment of 
any subcommittee or committee that I know of in Congress 
belongs to this committee when it was a full committee of Navy 
affairs under the legendary Carl Vinson. When he faced a 
situation very similar to the current situation in the early 
1930s, after an administration that did not believe there was 
any need for a navy, the only administration in history that 
never built a single naval combatant--this is the Hoover 
administration--it was this committee that took on the 
challenge of educating the Congress and the American people 
about why there was a need for a strong navy as the United 
States grew in its presence and influence and dependence in the 
world. And over the entire decade of the 1930s this committee 
was where the action was, and they gradually brought the new 
Roosevelt administration along to begin to start to program for 
the kind of threats that were emerging in Europe and Japan, and 
it was this committee that was the forum of the long-term 
strategic thinking, assisted very closely by the Navy.
    But this was where the action was, this committee. And I 
would hope that this committee will again take up that long-
view strategic role, because currently I don't think anyone 
else is in the U.S. Government. There are three priorities that 
I would suggest that the committee address over the coming 
years. This is not something that can be done in this session 
of this Congress.
    But first you have to reestablish I think the intellectual 
framework, the commonsense framework for why we need a Navy and 
where we need it and what kind of a Navy to carry out the task. 
It was relatively easy for the Reagan administration with a 
bipolar world in the Cold War. The Soviet threat clarified the 
mind wonderfully and made our task relatively easy. Today you 
could argue that the world is a more dangerous place because it 
is so multipolar, there are now so many more potential 
disturbers of the peace all over the world, and yet we are more 
dependent ever in our history on the free flow of energy and of 
commerce through the Pacific, Indian Ocean, the Atlantic, 
Caribbean, and so forth.
    We have to have the capability to maintain stability and 
freedom of the seas wherever our vital interests are involved. 
We should not be the world's policeman, but we must be able to 
give the rest of the world the confidence to know that we are 
able to maintain the free flow of a global community of 
commerce and freedom of travel, and that we don't have today. 
We don't need a 600-ship Navy, as we did when we faced the 
entire Soviet fleet, but we certainly need a good deal more 
than the 280 ships we have today. And I was part of the 
independent panel on the QDR [Quadrennial Defense Review] 2 
years ago, and we were unanimous, Republicans and Democrats, 
that the minimum necessary was a 346-ship Navy just to maintain 
deterrence. This is not arming to deal with a potential threat 
from China or anywhere else. It was simply to be able to 
maintain stability and deter disturbers of the peace around the 
world. The threat has not gotten less since that report was 
given to Congress.
    But also I think it is very important to understand that we 
shouldn't focus on the easily counted numbers of ships and 
airplanes and so forth. I would hope that this committee would 
concentrate on the larger picture of the global requirements 
and what makes up naval power. It is not just numbers. 
Certainly the shipbuilding program submitted by this 
Administration is way below what is going to be required in the 
future.
    But even more disturbing is what is going on now in the 
overuse of the assets we have. It is very unfortunate that the 
institutional memory in the executive branch and in Congress is 
so short, because we have been down this road before. Both 
Admiral Roughead and I were in the Navy when we had the exact 
same situation in the 1970s, and we ran the fleet into the 
ground. We made deployments, added 50 percent to deployments 
time from 6 months to 9 months, just as the Administration has 
decided to do now. And we did not put--we, the U.S. 
Government--did not put the money into repairs and overhaul. 
And as a result the Navy dropped to the lowest readiness ever, 
where the former chief of naval of operations testified to this 
committee that we would lose a war if we ended up going into a 
conflict, and that was not an assessment lightly taken.
    We had the lowest morale, the lowest retention, the lowest 
recruiting, because families couldn't live for very long with 
that kind of lifestyle. We were just asking them to do too 
much. Yes, in a crisis the Navy can do more with less, but for 
sustaining peace you cannot do more with less, you can do less 
with less. And so I think the current policy of extending 
deployments with the fleet we have, small as it is and 
certainly too small for the commitments that we are pledged to, 
we have got to stop that. And I applaud the Navy's decision to 
deal with the cuts of the budget, quite apart from sequester, 
by not deploying a Marine amphibious group and a carrier group 
as well. That is what they should do in this kind of a crisis, 
is just reducing operations and not using what we don't have.
    And the last point I would make as an area that I would 
hope this committee will concentrate on is procurement. We have 
been for some considerable time now disarming unilaterally. In 
constant dollars the budget today, outside of the OCO [Overseas 
Contingency Operations] expenditures, is by some estimates 40 
percent larger than the height of the Reagan administration, 
yet the fleet is less than half the size, the Air Force is less 
than half the size, the Army is about half the size. And so we 
are spending more and getting less in constant dollars, and 
that is because we have allowed the uncontrolled growth of 
overhead in the Department of Defense.
    So while I know you have to deal with the current fiscal 
crisis and deal with sequester and so forth, but even if 
sequester doesn't happen you are still facing a major crisis 
because we are unilaterally disarming. And we have got to fix 
the procurement system. It is fixable. And this committee, I 
would hope, will take the leadership in taking it on. And I 
would be happy to answer your questions, Mr. Chairman, thank 
you.
    [The prepared statement of Mr. Lehman can be found in the 
Appendix on page 31.]
    Mr. Forbes. Thank you, Mr. Secretary.
    Admiral.

  STATEMENT OF ADM GARY ROUGHEAD, USN (RET.), FORMER CHIEF OF 
                        NAVAL OPERATIONS

    Admiral Roughead. Mr. Chairman, Mr. McIntyre, it is a 
pleasure and an honor to be back----
    Mr. Forbes. Admiral, have you got the mike on? Thanks.
    Admiral Roughead. I have already lost my touch.
    It is a pleasure and an honor to be back before the 
committee, and also to be at the witness table with Secretary 
Lehman who did so much to build our Navy, rebuild our Navy, 
that has set the foundation for the Navy's capabilities today. 
Much of what I will say really echoes what Secretary Lehman 
said, that I believe our founders had it right when they said 
that it was the obligation, the responsibility of the Congress 
to provide and maintain a navy. Very different from what was 
said about raising and supporting armies, because I believe 
they realized the importance then as a maritime nation to have 
a navy that was in being, a navy that had the reach and the 
power to represent our interests around the globe. And even in 
the early days, that field of view was in much closer than it 
is today.
    And it is that Navy that has been built over the centuries 
and recent decades that has enabled the globalization, that has 
enabled the free flow of commerce on the world's oceans, and 
there is only one navy in the world that can do that, and that 
is the United States Navy. It is the only navy that can command 
it and control itself globally. It is the only navy that can 
logistically support itself globally. It is the only global 
navy. And I believe that the path that we are on right now may 
make some of those assumptions unfounded.
    As we look at the world today, while it is generally 
conducive to our interests, it is still a messy place, with 
disorder and disruption in more areas than just 10 or 15 years 
ago. And as we look out over that world and as the only global 
navy, you do have to ask yourself what is the size, what is the 
capability that you want resident in the Navy that is to be 
provided and maintained by the Congress. And I applaud the 
committee for taking this on and looking at it in a strategic 
way and taking a long view of what will be necessary in the 
future.
    I think it is important as we look at building and 
maintaining a navy that you can't decouple it from the 
industrial base of the Nation. And I think that all too often 
is overlooked. I think it is an assumption that these things 
just happen. And it is not just the shipbuilders and the 
airplane manufacturers, but I am most concerned today about the 
second- and third-tier suppliers, the small businesses that are 
in each and every one of your districts and all of your 
colleagues' districts all over the country. And I am concerned 
that the budgetary shocks, the fiscal shocks that we are 
experiencing will call into question the survivability of that 
base. And it is from so many of those small companies that our 
real capability, that new technology is introduced. And so that 
I believe has to be very much a part of a strategy as we look 
to the future, not only what size and type of Navy do we want, 
but what is the industrial base that produces that Navy?
    The other aspect is manning the Navy. As the Secretary 
mentioned, we are of the vintage that I recall a down time in 
the Navy. I recall a time when we didn't have enough money to 
maintain ships in the way they needed to be maintained. I 
recall a time when we didn't have enough time between 
deployments to train the new sailors who had come aboard ships, 
and I questioned whether we could fulfill our missions. And I 
was particularly concerned about the safety of the young 
sailors that were on board those ships as we went out and did 
very dangerous and hazardous and stressful things. And I am 
fearful that we could return to that time again.
    And it is also important as we look at fleet size and the 
obligations that we have, just how hard are you going to push 
the Navy. Again, going back to my early years, I recall knowing 
the date that I was to deploy. I didn't know the date I was 
coming home. And there is one thing that sailors don't like and 
that is uncertainty. You can tell them how long the job is, how 
hard the job is going to be, and they will sign up willingly. 
But the uncertainty injects questions and doubt in the minds of 
those that we are asking to do the very hard work.
    I think as we go forward, in addition to looking at fleet 
size--and I agree that as I look at the world the fleet size is 
somewhere, as I put in my prepared statement, probably between 
325, 345, conservatively--because the messiness of the world is 
spreading. We have been able in recent years to essentially be 
absent in the Mediterranean. I believe the future is not going 
to give us that luxury. I think North Africa and the Arab 
awakening, the Levant, Israel, Syria, energy deposits that are 
expected to be found in the Eastern Mediterranean are going to 
inject some friction and potential conflict and a presence will 
be required there.
    Even though we talk about a rebalanced Asia, we are not 
turning away from the Middle East and the Arabian Gulf and the 
importance that that geographic area has on the global economy. 
And in a few years the Arctic is going to open, and the Arctic 
is an ocean. I refer to it as the opening of the fifth ocean. 
And so what sort of a force do you need there, what are the 
numbers that you need there? And all of that needs to be taken 
into account.
    And the question then becomes where do you want your Navy 
to be, what do you want it to be able to do, and then how do 
you build and sustain that Navy? And so, again, I applaud the 
work of the committee and the vision of the committee as you 
look to the future to add the strategic underpinning to what I 
believe are extraordinarily serious discussions and decisions 
that have to be made not just in Congress but in our country, 
and I look forward to your questions.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 40.]
    Mr. Forbes. Thank you, Admiral and Mr. Secretary. One of 
the things that you both encouraged us to do, let me assure you 
we are going to do, we are going to revitalize this Navy and we 
are going to try to lay a foundation for the Navy for decades 
to come. The good news we have in this subcommittee is it is 
probably the most bipartisan subcommittee, I would think, in 
Congress. Most of the people on this committee, we are personal 
friends, we have enormous respect for each other. We each bring 
parochial interest and areas of expertise, but we will rise 
above those and try to fight against our respective 
conferences, against the Administration, whoever we need to do, 
to make sure we are doing what is in the best interest of the 
United States Navy and the Marine Corps and the future of this 
country. And we appreciate you being here to help lay that 
footing for us.
    And I am going to start with one question and then defer 
the rest of mine so that other members can ask theirs. But 
there has been a lot of discussion about the overall defense 
strategy and the one-third/one-third allocation between the 
services of funds that has traditionally accompanied the budget 
request. I am going to ask both of you if you can provide your 
assessment of the defense strategy, thoughts on allocations 
between the services that you might provide.
    But there is one other thing. We constantly in this era of 
cuts to national defense hear this phrase ``acceptable risk.'' 
You know, if you wear a suit acceptable risk gets kind of 
waffled, but if you are in a uniform it normally means how many 
people come back, you know. How do you interplay acceptable 
risk? Give us your handle on that when we are looking at these 
cuts that we are facing and what we have done and what we may 
be doing to national defense. And whichever one of you wants to 
have at that one, I would appreciate listening to your 
response.
    Mr. Lehman. Well, acceptable risk is the judgment of the 
most experienced and best people that the country has elected 
or appointed to provide that judgment. You can't provide a 
metric: If you reach 307 ships you are over the risk factor. It 
is a judgment. And when you look at the judgment of virtually 
all naval experts today, there is no one, including in the 
Chinese Navy and the Iranian Navy, who believes that given the 
obligations we have and continue to support, that the size Navy 
we have today is adequate to deal with that.
    And so acceptable risk of the cuts that are in the 
immediate prospect, I think a lot depends on where they are 
allocated. I think that there is a huge amount of overhead fat 
in the defense budget, but I don't see sequester providing the 
flexibility to remove and cut that overhead that is in both the 
uniform and the civilian sides of the Pentagon. And by the way, 
I think it is much more in the independent agencies and OSD 
[Office of the Secretary of Defense] than it is in any of the 
Services.
    As to the allocation of a third, a third, a third, I just 
have never believed that looking at the output of defense 
capability as a function of the input of the budget level is an 
adequate or valid measure. The more money you put in, if the 
system is not functioning, means the less capability you get 
out. And the record of the last couple of decades from a macro 
standpoint demonstrates that.
    So I think you need to start with a strategy, and there is 
not a coherent strategy coming from this Administration, and I 
must say from the last administration. This committee can 
provide the building, the forum to build that consensus of 
strategy, as we did have in past eras, and from that should be 
derived the requirements to meet that strategy. And it is very 
unlikely that it is going to come out a third, a third, a 
third. Whether we need the size standing Army we have today 
given the threats that we face around the world and the nature 
of what our overall role should be in the world, whether or not 
we can live with an Air Force with an average airplane age of 
something like 28 years, whether we need the size, whether we 
need a new bomber, those are all questions that you in the 
Congress have to logically decide. I doubt very much if it is 
going to come to a third, a third, a third. But first step is 
to begin to build the outlines of a strategy so you can make 
coherent judgments. Otherwise it will absolutely default to a 
third, a third, a third.
    Admiral Roughead. I would say that as I look at acceptable 
risk it is important to look at where do we believe the Navy 
would be called into play, either to assure or deter or compel. 
And in looking at that, then you always want to make sure that 
you have your options preserved and that your probability of 
success is better than a potential adversary's probability of 
success.
    And so that gets into what is the strategy, where are our 
interests globally? To simply say that we are pivoting to Asia 
almost implies that you are excluding other areas of the world 
that are going to be important in the future. So how you look 
at the world, where the Navy would be, and then how you want to 
use that Navy with a higher probability of success than an 
adversary is the way that I look at it.
    And when you do that, and particularly as you look at some 
of the trends that are taking place in the world today, the 
increased sensitivities with regard to sovereignty, of 
reluctance of countries to openly accept large numbers of 
ground forces, the space that has been reduced by leaders 
around the world because of the way information moves, where 
they can privately agree to certain things and then publicly 
have a different position, I think we are seeing that that 
margin is really compressing down.
    So the idea that sovereignty is going to be a much more 
sensitive issue to me argues that there are going to be more 
offshore options that will be in play, that the likelihood of 
selecting a course of action is going to be light footprint 
ashore for a minimum amount of time, but having that presence 
offshore, having that power offshore. I would say whether we 
like it or not we are going to be involved in counterterrorism 
operation. Offshore staging areas or ships give you the 
opportunity to respond more quickly, more effectively and 
potentially more lethally than having to come across great land 
masses where you have to get not only the assurance of basing 
in the country where you may want to operate, but all of the 
overflight rights. Navies allow you to you come from the sea 
and not to have to do that.
    So the strategy and the way that we are looking at the 
future collectively as a nation with rebalancing to Asia, the 
reluctance of any administration of any party in the 
foreseeable future to avoid large ground campaigns, I believe 
argues for the Navy. When you do that, that immediately walks 
you away from an equitable share among the Services, and much 
the same as when we were involved in the campaigns of recent 
years, that biased the budget share differently.
    I think one of the challenges that is faced, not only 
whether it is sequestration or continuing resolution, is 
locking in place the size of personnel, the number of personnel 
in the military, as not being able to be touched really 
hamstrings the ability to adjust a budget that is tailored to a 
strategy, that is tailored to outcomes, that is tailored to 
capabilities. So I think that as we look to the future, the 
money must be apportioned in the way we believe the military 
will be called into action.
    Mr. Forbes. Thank you both.
    Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses for being here today.
    I want to echo the chair's comments about the fact that 
this is a team on this subcommittee. In fact, I think, Mr. 
Secretary, you can just go back a couple years ago, this 
subcommittee actually led the way to force advanced procurement 
in the Virginia class [attack submarine] program, which again 
the prior administration resisted, but thank God we did it. And 
the program is I think performing better than even its 
proponents expected at the time. The last defense authorization 
bill that was passed in December allowed for incremental 
funding for both DDG-51s [Arleigh Burke class guided missile 
destroyers] and the Virginia class to avoid any dips. We have 
obviously got to get an omnibus done to make that a reality, 
but again I think you are really talking to people here who are 
ready to accomplish the goals and missions that are our 
predecessors did so well. And thank you for the little history 
perspective, that was quite interesting.
    Admiral, you talked about the fact that, you know, we have 
got to obviously keep our eye on the industrial base, Mr. 
Secretary, you talked about the need for procurement reform. 
During your tenure, I mean, I actually give you pretty high 
marks about the fact that the system of doing block grant, 
block contracts with fixed price, you know, that is firm has 
really I think changed behavior within industry and even with 
LCS [Littoral Combat Ship] and some of the programs that we 
struggled with. And so I guess the question I am trying to 
understand is, is that in terms of shipbuilding this model I 
think, A, has shown real results in terms of moderating and 
eliminating cost overruns, but also protecting the fragile 
shipyard, you know, network that we still are barely hanging 
onto in this country. So if you had to say what procurement 
reform and how that fits in with where we are at and maybe you 
could just expand on that a little bit, Mr. Secretary.
    Mr. Lehman. Thank you. The reforms I think are simple 
reforms. It is returning to the tried and true traditions of 
line management and accountability and have a clear chain of 
command over programs once they are approved and started. And 
this should be centered in the Services with the oversight of 
OSD, but with the line accountability and authority in the 
Services. That is where Title 10 places the reins of chief 
executive authority. And going back to that tradition where a 
project manager, for instance, has to stay for 4 years, and if 
they don't succeed they are held accountable. A Secretary of 
the Navy is given the authority to ensure the proper running of 
the programs in the Navy and held accountable if they run off 
the rails.
    That has been really lost over the recent decades because 
the power has been drawn up into OSD and the independent 
agencies and into the joint requirements offices, the COCOMs 
[Combatant Commands]. There are now currently 40-some 
committees, not human beings that you could praise or condemn, 
but committees who have authority over procurement programs, 
which means nobody is in charge, which has been the curse of 
all of the Services' procurement.
    The Navy, despite the bad headlines of some periods, has a 
tradition of that line accountability. A captain is responsible 
for his ship, a program manager is responsible for his program, 
and if it goes on the rocks there are consequences. That is not 
now the norm in the Department of Defense. Part of the problem 
has been the constant growth, and I have to say the House and 
the Senate have aided and abetted that process of every time 
there is a scandal or a problem, the only answer that Congress 
seems to be able to come up with is add more people, we need a 
new cost accounting program, we need new contract auditors. You 
passed a bill 2 years ago to add 20,000 people to the defense 
procurement, civilians to defense procurement. The whole 
Pentagon only holds 25,000 and you at the snap of a finger 
added 20,000. There are 970,000 civilian employees in the 
Pentagon today, almost double what they were when the fleet and 
the Army and Air Force were double the size they are today. So 
we keep growing the bureaucracy and overhead and shrinking the 
force, and shrinking the numbers of products and weapons that 
we get for the dollars we spend.
    So it is not that complex an issue. We have to return to 
lean management line accountability and we have got to bring 
competition back in, as has been. The Navy has tried very hard. 
I think today we have got some outstanding people in key 
positions in Navy procurement, but it is like swimming in 
treacle because you have all this oversight of all of these 
other nonaccountable bureaucracies that make it so difficult to 
do.
    You can't have competition if you don't have firm grip over 
requirements. And a huge mistake made by Congress in passing 
the Goldwater-Nichols Act some 30 years ago was to take the 
Chief of Naval Operations and the service chiefs of all the 
Services out of procurement responsibility. That is really 
crazy. And it was done because they wanted to empower the 
bureaucracy, jointness. And the result has been very 
predictable. Nobody is in charge of programs, everybody is in 
charge.
    And everything has reverted back to the normal bureaucratic 
norm of sole source, cost-plus for the most part. They call 
competitions what are really beauty contests to award 50-year 
monopolies. That is not competition. Competition requires dual 
sources at least, with real production competition. You have 
got to protect the contractors from the constant gold plating 
and change order culture that this bureaucratic system we have 
produces. How can you have a fixed price if there are 75 change 
orders a week, as the LCS had for a long period in the first 
ship? You can't.
    Mr. Forbes. The gentleman's time has expired.
    Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Lehman, Admiral Roughead, thank you so much for 
joining us today.
    Admiral Roughead, I want to begin with you. You spoke a lot 
about acquisition. I want to kind of get your perspective. 
Admiral Burke recently at the Surface Navy Association spoke 
about the costs of the lifecycle of a ship, and he said about 
38 percent of that cost is in procurement, the other is in 
essentially lifecycle cost operation. Let me get from your 
perspective, how do we in looking at using the limited 
resources we are going to have in the future, how do we make 
sure that we address those long-term costs, those lifecycle 
costs up front in the procurement process, especially in light 
of where we are with LCS and some of the things that we are 
currently experiencing with that? Kind you give me your 
perspective on how do we address that, and not only now but in 
the long term to make sure we don't keep circling back to those 
situations.
    Admiral Roughead. Well, thank you for the question. And I 
agree that one of the things that has not been done is to look 
at what will something cost for the 30, 35 years that you are 
going to use it. And you have to take into account your 
manpower costs, energy costs, and maintainability. And that to 
me should be one of the upfront factors that is taken into 
account, because what we are essentially doing, particularly as 
we pursue some of the more exotic technology, is that 20, 30 
years from now we are delivering a bill that will be 
unsustainable by our successors down the road.
    And so I would submit that that comparison, that analysis 
has to be part of whether you go forward or not. Right now it 
is essentially how much do we pay for a unit and then that is 
where the decision is made. And as I came into my last position 
in the Navy and looked at the cost of operating what we were 
buying, it was one of the most sobering afternoons of my 
indoctrination. And so I think that has to be something that is 
fleshed out, and quite frankly our experience in being able to 
do that is not very good.
    If I could, I would also just like to reinforce what the 
Secretary said in accountability. Accountability is so 
important. And I really do believe that it is at the service 
chief level where you set a requirement and then that service 
chief is responsible for giving the up or the down on changes 
that need to take place, because things can take off and these 
are well-meaning people with good reasons of doing what they 
did. But even in our private purchases we always have to make a 
decision about what is it that we are willing to pay for, some 
things we are, some things we are not.
    I also think that we have to take a look at those who are 
in the management of our acquisition system, and particularly 
in the programs, and rationalize our personnel system with it. 
The Secretary mentioned keeping people in place for 4 years. 
But I really believe that we should structure the career 
patterns for those in acquisition to really be driven by the 
attainment of milestones. In other words, when a program 
reaches a particular milestone then that individual can move on 
to another assignment, because that only adds to this lack of 
accountability. When something doesn't happen on time whose 
problem is it, the guy that started it or the guy that is 
holding the bag now? And so I think we have to take a look at 
that.
    And it really gets down to accountability. And since 
retirement I have relocated out to Silicon Valley where I spend 
most of my time and there is a very, very different view on 
accountability on delivering product within a certain amount of 
time. We have endless, what seem to be endless time limits in 
developing capability, and quite frankly it gets there late to 
need and costs us more than we anticipated. So I think we have 
to take a look at that.
    And failure in test is not failure of a program. You know, 
we need to be able to not add more requirements because 
something didn't quite work the way we anticipated it. That is 
how you develop, that is how you move forward. And we need to 
change the culture that recognizes that making progress 
sometimes involves having a failure or two along the way.
    Mr. Wittman. Want to get you to answer real quickly on 
this, I am on limited in time. You spoke very eloquently about 
your experience and you have seen times of drawdowns, you have 
seen hollowing of the force. Let me ask you this: In going 
forward in today's situation, and the chairman spoke very much 
about acceptable risk, how do we look at the current situation 
and make sure that we are able to maintain a ready, capable, 
and trained fleet in light of the current situations, in 
knowing, too, that if we don't make the right decisions, as the 
chairman said, we are going to be facing that risk scenario and 
then having to really face the difficult question of what is 
acceptable risk?
    Admiral Roughead. I think one of the things that needs to 
be done is to look at these very sophisticated machines that we 
operate and are we providing the appropriate maintenance to get 
them back online again or are we taking shortcuts. Are we not 
installing upgrades that give our people the edge against a 
potential adversary. And are we investing in the training that 
our people need to operate this very complex stuff.
    And so I think a lot of it is getting into the, as in so 
many things, the devil is in the details. Are the upgrades 
being made, is the maintenance being performed on time? Because 
if it is not, things are going to start to break. And that only 
induces more strain on the force, as you have to pull somebody 
who wasn't ready to go, it is now their turn to go. And so I 
believe that is the point where we are.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to thank you both, Mr. Secretary and Admiral 
Roughead, for joining us today and of course for your 
extraordinary service to the Nation. You both can look back on 
amazing careers and know that you made have extraordinary 
contributions to the Nation, for which we are very grateful. We 
certainly appreciate the benefit of your insight as we grapple 
with the complex challenges of the future and how best to 
posture our naval capabilities to meet them.
    Admiral Roughead, if I could start with you since I have 
had the pleasure of working with you most directly over the 
years. The current Navy shipbuilding plan allows the existing 
fleet of dedicated SSGNs [cruise missile submarines], Ohio 
class submarines converted to carry cruise missiles, to retire. 
In its place the plan relies on the Virginia Payload Module, 
which would insert a hull section into the Block V Virginia 
class submarines that would have the ability to carry a variety 
of assets, including cruise missiles. Admiral, can you speak to 
the value of maintaining this type of capability for the 
future?
    Admiral Roughead. I think that what we were able to achieve 
when we converted the SSBNs [ballistic missile submarines] to 
SSGNs gave us an incredible capability, not only in the area of 
strike but also in support for special operations forces. 
Clearly, recapitalization of SSGN, in my view, is 
extraordinarily costly and I would submit too costly as we look 
to the future. But moreover, putting aside the cost, by being 
able to put in the Virginia class, the payload modules, gives 
you more of that capability to spread globally. And I talked 
earlier about the disorder that was likely going to exist 
around the world in many different places, and again it gets 
into a question of numbers. And I would tell you that I would 
rather have many Virginia class submarines with that 
capability, maybe not as many tubes as an SSGN, but it gives me 
more options of where to put them and bring that capability to 
bear, whether it is strike or whether it is special operations 
forces.
    So I think the plan to move forward with that in the 
Virginia class is important, and I also believe it sets up the 
Virginia class to be the ``mother ship,'' if you will, for what 
I believe is an extraordinary potential in unmanned systems in 
the undersea that will prove to be more dramatic than what we 
are seeing in unmanned systems in the air.
    Mr. Langevin. I hope to be able to get back to talk about 
the UAVs [Unmanned Aerial Vehicles] in just a minute if time 
permits. But to the panel--and thank you for that answer, 
Admiral--to the panel, to both of you--Mr. Secretary, perhaps 
we could start with you--staying on the theme of the 
submarines, I am deeply concerned about the possible effects of 
the current budgetary uncertainty of the procurement of nuclear 
submarines, and as we are at a critical moment now as Virginia 
class procurement hits its design rate of two boats per year 
and with those boats coming in early and under budget. 
Additionally, the Ohio Replacement development program is at an 
inflection point in preparation for the procurement of the 
first boat in 2018.
    To both of you, can you speak to the value of those 
platforms in the future and what they mean to America's 
deterrent and ability to project power? In particular, can you 
speak to the downstream operational costs of any delay in 
procurement of the submarines?
    Mr. Lehman. Well, first, I think the submarine program has 
been one of the best managed of any procurement program in the 
Pentagon over the last couple of decades. There are other 
approaches that could have been taken, but I think this is a 
model for the current era. But to delay it could really lose a 
significant proportion of the benefits that have been gained 
and the wisdom that has been gained coming down the learning 
curve with both ships, or with both contractors on that ship, 
on that boat. And it would be a shame because you lose key 
welders, particularly with the kind of steels that are involved 
in submarine construction, welders and shipfitters and 
pipefitters. You can't just get them on the street, you can't 
go get a headhunter and hire 20 when the budget comes back on. 
When you lose them they are gone, they are gone particularly 
with the new sources of energy and the growing gas oil 
businesses. So that would be a tragedy, to see the current 
procurement program delayed.
    As to their utility and necessity for deterrence in the 
future, it is not just what they can do as SSNs for projecting 
power ashore or defending the fleet, but they make possible all 
the commerce, all of the container ships, all of the tankers. 
It is those Virginia class that are going to have to bear the 
burden of preventing any of the more than 140 active and 
effective quiet diesel electric subs around the world, many of 
them in the hands of disturbers of the peace, from being able 
to close off the Straits of Hormuz or the Malacca Straits or 
from actually sinking a tanker and bringing the flow of oil to 
a halt for however length of time. So they are essential to any 
naval operations around the world, and so I think this 
committee should take great care to see that they are 
protected.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from Texas, Mr. Conaway, is recognized for 5 
minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    Admiral Roughead, the Navy recently announced that they are 
going to delay the refueling or the major overhaul of the 
Lincoln [USS Abraham Lincoln supercarrier], which daisy chains 
the defueling of the Enterprise [USS Enterprise aircraft 
carrier] and then refueling the Washington [USS George 
Washington supercarrier]. Can you speak just how is the Navy 
going to mitigate this delay in the refueling of these nuclear 
carriers and keep us on track?
    Admiral Roughead. Well, I am not in a position to speak for 
the Navy, but I would say that my sense is that we are going to 
have to pay later for what is being done, because this has a 
ripple effect throughout the entire carrier force. And by 
delaying the refueling, by disrupting the flow within the 
industrial base, because particularly when we get into ship 
maintenance and especially our very complex nuclear 
maintenance, the schedules of maintenance and operations are 
very carefully synchronized. And what we are in the process of 
doing, for good reason because of the fact that the Navy's 
leadership has to be good stewards and accountable for the 
funds that they have, we are now in the process of disrupting 
that pattern, that synchronization, the workloading of 
shipyards in a way that will take some time to recover.
    There is a word that I see in strategy and I see it in the 
press, it is called ``reversibility.'' And reversibility flows 
off everybody's tongue really easy and it is a nice catchy 
word. But I believe that we have to be very, very careful of 
reversibility within the industrial base, whether it is new 
construction or maintenance because, as the Secretary pointed 
out, some of those skills that we depend on are going to 
migrate out of the shipbuilding business, they have to because 
they want to feed their families, they want to keep their 
companies alive.
    And so I am very pessimistic that once we get into the 
shift of work away from our shipyards and the subcontractors 
that support our shipbuilding and our aviation maintenance and 
building, that it is going to be hard to get it back, that that 
depth is no longer existent in the industrial base.
    Mr. Conaway. Manning the Navy in Littoral Combat Ship, 
there are some reports out there that the Navy may move to a 
dedicated significant group of folks who only serve, I guess 
their whole career, on LCSs. Can you speak to us about what 
your perspective is on that as well as the Blue crew/Gold crew 
concept of keeping the boat in place, but just move the crew on 
and off, is the Navy seeing good results in that? And then the 
overall issue of dedicating a career to just LCSs.
    Admiral Roughead. Well, thank you very much. And I would 
say that I believe that the crew design that the Navy has for 
LCS is a good one, because, particularly when you are in the 
Pacific making those long transits, that is just lost time on 
station. And having served in small ships before, they can be 
quite fatiguing. So I think the crew concept is good, as long 
as the resources are provided to train the off crews when they 
are ashore, that we don't simply load more work on them because 
we have cut in other areas and they are a labor pool that is 
not on a ship, so we use them. The whole thing can unravel if 
that is allowed to happen.
    With regard to serving on LCSs for a career, I think that 
for many people that will be just fine. We have sailors today 
who serve their whole life on destroyers because they like 
destroyers, sailors who routinely go back to aircraft carriers, 
and of course our submarine fleet force is pretty unique. I do 
think that we will always want to bleed off some of those 
sailors to go serve in other areas because of that cross-
pollinization that you get, and the different perspectives and 
different ideas I think are very helpful. But I would have no 
problem with a young man or woman who likes that duty, stays in 
that duty. They will know that ship better than anybody else.
    Mr. Conaway. Thank you, Mr. Chairman. Yield back.
    Mr. Forbes. Ms. Hanabusa is recognized for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Thank you, Mr. Secretary.
    Thank you, Admiral.
    Both of you have come very close to the number that you 
believe the ships should be. Admiral, you are between 325 and 
345, and Mr. Secretary's adopted the review panel's 346. But 
what I don't know is what makes up the 325 to the 345 or what 
makes up the 346. In fact, the review panel has 11 aircraft 
carriers and 10 carrier air wings, 55 attack submarines and 4 
guided submarines and the total of 346, and that kind of 
doesn't add up.
    So can you both tell me that as we sit here and we make 
these decisions, what should we be looking at in your 325 to 
345 or in your 346? Is there some sort of criteria as we look 
at what we want to see the Navy of the future actually begin to 
look like?
    Mr. Lehman. That is a very, very good question, because too 
often the commentary in the media focuses on those numbers as 
if somebody just came up with them and then we will decide how 
we will allocate them and where we will use them.
    The 600-ship Navy in the Reagan administration and the 346-
ship Navy of the independent panel was derived first from a 
strategy. And in the Reagan administration there was a very 
clear strategy that the President had very thoroughly vetted 
and had approved with the National Security Council. From that 
were derived the force packages that were needed to be in place 
both for deterrence, and then in the event of conflict in any 
area, to be able to reinforce. And when you have a force 
package, you have to have submarines, you have to have air 
superiority, you have to have resupply ships, you have to have 
mine-sweeping capability, and of course you have to have 
submarines to keep the area clear of enemy submarines.
    And from that, you get force packages made up of those 
numbers of ships. And the sum total, in the case of the Reagan 
strategy, given the areas we had to be in the world, came to 15 
deployable battle groups, with 5 of them forward deployed all 
the time on a 1-in-3 cycle, and that came to 600. That is how 
it came from. It wasn't the reverse, you pick a number and then 
figure out how you are going to use them.
    Similarly, the 346 made assumptions, because the strategy 
paper in the Administration's QDR was a fairly reasonable and 
clear allocation. And the minimum that all of us, Republicans 
and Democrats and very experienced people, uniform and 
civilian, came up with minimum for force package to meet what 
the Administration said it had to do was 346. That included 
allocating submarines, reefers [refrigerated cargo ships], 
aircraft carriers, et cetera.
    So I think that is the way the committee should go about 
evaluating the Administration's proposal and other 
recommendations from people like us. That is why I emphasize 
that the committee needs to start by building a clear, simple, 
commonsense strategy, and from that making their decisions and 
judgments on individual programs.
    Ms. Hanabusa. Thank you.
    Admiral.
    Admiral Roughead. If I could just add on to that. You know, 
I have a band of numbers in mind, and I think that it is not 
just a question of where you want to be, but it is what the mix 
is, what the Secretary was referring to, and sometimes if you 
come down in one area, you might have to have a few more ships 
of a different type. But balance is very important. You know, 
we could drive to a high number if we just built a bunch of 
LCSs, but that is not going to meet the Nation's need. And so I 
think you have that.
    The other factor that needs to be taken into account, and 
this is where strategy comes into play, what are your 
assumptions and what are your dependencies on allies and 
partners? What capabilities will they bring? Can you be 
reasonably sure that that is going to be there when you need 
it, because every nation is going to have competing interests 
and considerations?
    And then there is also the question of where do you base 
it, where do you operate from? You know, we gain greatly by 
being able to have ships in Hawaii, farther to the west in the 
Pacific. We gain greatly by the accommodations that are made to 
have forward deployed forces in Japan. We are recently moving 
some ships to Spain.
    So all of that goes into the mix, and that is why I avoid 
shooting at one particular number, because there are factors 
that can come into play. But this comes back to this idea of 
the committee's view and the committee's strategy, the 
committee's assumptions about what kind of a Navy does the 
Nation need and how do you see it being used.
    Ms. Hanabusa. Thank you very much, Mr. Chair.
    Mr. Forbes. Gentleman from Mississippi, Mr. Palazzo, is 
recognized for 5 minutes.
    Mr. Palazzo. Thank you, Mr. Chairman.
    I want to thank the witnesses for their testimony and thank 
you for appearing in front of this committee and for your 
faithful and dedicated service to our Nation. So I really 
appreciate that.
    Of course, you know, traveling through my district, we are 
starting to hear a little bit more about that awful word, 
sequestration. I have been trying to explain it for the past 
year to anybody who would listen. I think just the sound of it 
just made people bored, but now that they actually realize 
that, you know, these are going to be some serious cuts to our 
national security, undermining our national security, and it is 
going to affect our industrial base and hollow out our 
military, people seem to be paying a little more attention.
    And so just kind of jumping straight to it, I know with the 
continuing resolutions, one after another, the fear of 
sequestration and all these things, that the Navy has most 
definitely been deferring maintenance on their ships and now 
there is talk of deferring procurement on the ships. And you 
just got finished talking about what you would like to see the 
desired ship numbers be in somewhat of a range.
    So my question would be to you, based on your experience, 
if they do defer ship procurement, what is going to be 
deferred? Is it going to be aircraft carriers, is it going to 
be submarines, is it going to be amphibs [amphibious assault 
ships], is it going to be destroyers? Just in your opinion, I 
would like to know what you think would be the first--LCS's--
what would be the first to go or to be pushed out further to 
the right?
    Mr. Lehman. Well, I think that you are going to have the 
major say in that here in Congress, as you have in the past. I 
would say what should be. First of all, maintenance is the 
worst of all places to go for deferment, because it has an 
immediate impact on morale of the sailors, things don't work, 
it is very frustrating, they get unhappy. And then when you 
defer it, when you go finally to fix it, it costs more. It is 
more difficult. What you might have been able to repair has to 
be chucked over the side and replaced with new. And so it is 
one of the worst places to go.
    If you defer procurement, then you have got to look at the 
workforce. Is there enough work, for instance, in Pascagoula to 
slip one destroyer without really hitting the workforce as hard 
as it would be if you slipped an amphib somewhere else? So it 
is a management issue. When you have to allocate pain, it is 
just like allocating additional money.
    And that gets back, I am sorry, to my hobby horse, which is 
the key people that should be making those decisions are not 
able to make them independently. The CNO [Chief of Naval 
Operations] is out of the procurement chain now by the wisdom 
of--the unwisdom of Goldwater-Nichols. Even the people, the 
project managers have so many kibitzers that can stop them from 
doing things in so many offices and the bureaucracy of 960,000 
civilians that the chances, if you don't take control of where 
those cuts are going to be made, they are not likely to be made 
with all rationality alone.
    Admiral Roughead. And I would just add that the complexity 
of your question is significant, because there are so many 
factors that the Navy will have to take into account. The 
Secretary touched on workforce, touched on schedule, touched on 
replacement for other ships. But then as you look at some of 
the pending procurements that are taking place, they are 
predicated on bids that the shipbuilders have gotten from 
second- and third-tier suppliers. How long will those bids be 
good? And so do you make the decision of we can't defer this 
because the whole deal may fall apart, so maybe we have to do 
that one first instead of the other.
    So it is extraordinarily complex, but I believe those are 
the types of questions that the committee needs to address, not 
just on the state and the size of the Navy, but also what 
impact it has on the industrial base beyond the major 
shipbuilding companies, but down into the second and third 
tier. Is it going to be survivable with some of these 
procurement decisions that are going to be made? And that is 
really going to be very, very hard.
    Mr. Palazzo. I appreciate you all's comments. I guess my 
time is up. Thank you again. And I definitely agree with the 
Secretary that our procurement system needs to be looked at 
really hard, and I am also extremely concerned about our third- 
and fourth-tier subs. I mean, they are already pressed up 
against the wall and hurting. Thank you.
    Mr. Forbes. Mr. Cook is recognized for 5 minutes.
    Mr. Cook. Thank you very much, Mr. Chairman.
    Thank you, Admiral.
    Thank you, Mr. Secretary. It is been a long time since I 
served under you. I think I was a captain or Marine Corps 
captain or maybe I was a major. As I said, it was a long time 
ago.
    But I appreciate some of the things that you were talking 
about. And quite frankly, it is very, very scary, and I think 
you are right. And one of the battles that we used to have 
personally was this phrase, ``the tempo of ops [operations].'' 
It seems as though it never goes away. And these commitments 
with a force that is diminishing, and now you have the extra 
problems with your procurement process and the inefficiencies, 
and we just don't have that luxury anymore. It is going to be a 
come-as-you-are party when war breaks out. We are going to have 
to go with what we have. And I am deeply worried about 
maintenance, obviously, and training.
    One of my colleagues, there were several, we went out to 
the Truman [USS Harry S. Truman supercarrier] a few weeks ago 
and we saw the carrier ops, including night ops. And I will 
tell you, that is such a fine skill that if you lose that 
training, bad things are going to happen; even in training 
environments, if we lose that time.
    So, you know, I am saying to myself, now that I am here and 
I am certainly not young, but I am not in the infantry, a 
company commander anymore at Camp Lejeune or going down the 
ropes of the Francis Marion [USS Francis Marion attack 
transport ship], which no one ever heard of, because that was 
in a dinosaur Navy.
    And what I am looking for is, I agree with you on this 
force, that we have this huge bureaucracy, I am actually 
looking for hard, concrete suggestions in terms of proposed 
legislation, because if we had the courage to change things, we 
could actually do it, because, Admiral, I think you are right, 
the culture has changed. And if we are not getting those forces 
and what have you down to the fleet and down to the troops, 
down to the sailors, you know, we are not doing our job.
    So, obviously, I should have been retired 100 years ago, 
but now I am in a position where maybe I can change that. So 
you, gentlemen, I think you kind of beg the question or the 
proposal. I am looking for actual suggestions which would be a 
major policy initiative to improve the efficiency of the 
procurement forces, change it so that readiness is much better, 
and save it in a time where budget crisis is going to be after 
budget crisis, money is always going to be a problem, where we 
can have better efficiency to protect our Navy and make sure 
that they are combat ready for anything that comes down the 
pike. If you could comment on it.
    Mr. Lehman. I would just say one thing. I hate to say 
anything particularly in praise of the current Administration's 
defense policy, but one of the best things that they have 
produced is the Pentagon's report done by the Defense Business 
Board on how to get at the bureaucracy and the overhead. They 
have put for the first time in my time in Washington the real 
hard numbers, finally made them accessible as to how many 
people there really are in the bureaucracy and which 
bureaucracies. And what surprised everybody, including the 
Secretary of Defense, is how many of our uniform people never 
deploy, but have become part of the civilian bureaucracy, and 
the 250 joint task forces that have grown from seven with no 
particular visible requirement, but it provides the billets 
necessary under Goldwater-Nichols.
    So I would use as one of your primary sources for ideas as 
to where to go to get the cuts the Pentagon's own study, which 
was completed 2 years ago and is, I believe, being updated. So 
there is plenty, plenty of places to go to find reductions that 
do not cut into muscle and bone, but really get the fat that is 
marbled through the entire process.
    Admiral Roughead. If I could, sir, what I would also add is 
that we seem--and I will be honest. I can't recall any time 
during my time as CNO when I testified either before the House 
or the Senate that I was ever pressed on how quickly we were 
getting something to the fleet. It was all about price, 
capability, things like that.
    And I really do believe that focusing on getting the 
equipment out quickly is important. And I just keep looking 
back on some, particularly in some of the communication systems 
and information technology systems, that I saw billions of 
dollars invested in and nothing to show for it, and yet I look 
commercially, and it is not an apples-and-apples comparison, 
but I look at the introduction of the iPod, the iPhone, and the 
iPad in a very short period of time, because I believe they 
were driven by when do they have to get it to the market.
    And for us, with the systems that we field, there is a 
market, and that market is to get those systems into the hands 
of our young people so that they can beat an adversary. And I 
think we have lost sight of that and we allow some of these 
programs to just go on and on and on, and there is no pressure 
to deliver on time and an examination as to what is holding it 
up. So I would offer that.
    Mr. Cook. Thank you.
    Mr. Forbes. Thank the gentleman for his questions.
    And Admiral and Secretary, we just have three more 
questions. I deferred mine till the end so I could get them on 
the record for you, if you don't mind.
    Admiral, after you released the 2007 Cooperative Strategy 
for the 21st Century's Sea Power, your staff, as I understand 
it, undertook a force study that would size the Navy suggested 
by that strategy. What was the size of the Navy that the study 
suggested and how was that reflected in the 2010 QDR?
    Admiral Roughead. My recollection is obviously we really 
stuck a number onto the 313-ship Navy. Some of the subsequent 
work that we did took it up into the 324, 325. But I would also 
add that that was before the Arab awakening, that was before 
some of the science that is now coming out of the changes in 
the Arctic, that is before increased tensions that we are 
seeing in the East China Sea and the South China Sea. So, you 
know, we were at 313, which was a number that I maintained 
throughout my time, but the world is changing, and to look at a 
number that won't be realized until 2039, I think that the 
committee needs to look differently about how we look at fleet 
size and how we drive to that number. And I would submit that 
getting out to 2039 is interesting, but it is almost 
irrelevant.
    Mr. Forbes. And for both of you, we look at that 2039 
figure and we hear testimony and we hear speeches made. It is 
kind of as if we have those ships right now, you know. But we 
all know that during that period of time, not only is it a long 
time, but there are certain gaps in there where we take rather 
substantial risks. We have gaps for our cruisers and 
destroyers, our attack submarines, and you know the gaps are 
there.
    Where would you pinpoint the greatest risk during that 
period of time, if you had to look at it, when we are 
stretching it out to 2039? What do you think is the greatest 
risk we are looking at, what period?
    Mr. Lehman. Well, I would not pick a specific risk, because 
I think when you have to stretch as thin as we are now already 
stretched, when we can't meet deployments that everyone, every 
combatant commander believes is minimally necessary, that we 
can't protect all of our ships, commercial ships in the Indian 
Ocean, for instance, the first time in history that the U.S. 
Navy has told ships they have to stay 600 miles away from the 
east coast of Africa because we can't protect you.
    So the danger is when you are stretched that thin, an 
incident happens, and because you have the number of submarines 
deploying with a Marine amphibious group, that some North 
Korean submarine happens to get a shot off the way they did to 
the South Koreans and sinks an entire aircraft carrier of 
marines and equipment, that is catastrophic. What that would do 
to world markets, to our economy, we would be in the tank 
overnight, and who knows once you loose the dogs of that kind 
of incident. And nobody sleeps well if they are depending on 
the North Koreans or the Iranians not doing anything 
irresponsible.
    We are there now, so I wouldn't say that you could pick a 
time where it gets worse. Obviously the fewer we have and the 
thinning out that we have to do more of, which we are 
absolutely going to have to do, makes us more vulnerable to 
those unforeseen events. And they happen. As any student of 
history knows, they will happen.
    Admiral Roughead. Mr. Chairman, I would say that, very 
similar to what the Secretary said, I think the greatest risk 
is having a Navy that is not sized or ready to respond to the 
unexpected, because it is going to happen. I mean, we can go 
back in history, and no one had perfect vision even 5 years, 10 
years ahead. And so I think that that element of risk needs to 
be accounted for.
    But I would also say that the great risk to achieving a 
Navy that meets the needs of the Nation is the erosion of the 
budget from within. And we have touched on that with the 
inefficient acquisition and the increasing cost of personnel. 
And being able to get in and reform that, I think, gives the 
Nation much more running room with regard to building and 
maintaining the fleet that it needs.
    If that is not arrested, if that is not controlled--and I 
am not saying take things away from people, I am saying we have 
to come up with a different way of attracting, recruiting, 
retaining, and compensating those who serve--but if we can't do 
that, the risk of providing and maintaining the Navy, I think, 
is pretty significant.
    Mr. Forbes. And my last question is really two parts, and I 
would love to hear both of you respond to this, if you don't 
mind. General Pace testified before the full committee several 
months ago, and he said at some point in time there is this 
tipping point where we are continually making cuts, and some of 
our potential adversaries see that tipping point and start 
trying to challenge our national security, where they would not 
otherwise have it.
    I know it is hard to pick an exact figure, but both of you 
have talked about the need to have substantially north of 313 
ships, whether it is 342, whether it is 346, or whether it is 
400 ships, something much higher than we have today. We are 
heading in the other direction.
    Where would you say, if you had to peg, that tipping point 
might be where we start seeing some of our potential 
adversaries start saying, my gosh, maybe we can catch them, 
one. And then the second thing that we hear over and over 
again, Mr. Secretary, you referred to our COCOM requirements 
that we have, we are not meeting those now. Give us your take 
on our COCOM request. You know, sometime when we are concerned 
about that as a committee, we kind of get witnesses that pooh-
pooh those requests, act like the COCOMs are just coming up 
with everything under the sun. You guys have seen that. You 
have assessed it. Give us your take on those requests and, if 
you would, the tipping point and what your opinion is about how 
our COCOM make their requests and how valid you believe they 
are.
    Mr. Lehman. Both very good points. The first one, the 
tipping point, I think we clearly are already there. I saw in 
this morning's paper a book just out giving Lee Kuan Yew's 
assessment of the world balance, and his assessment is already 
there. This is very recent. And, you know, I met with Lee Kuan 
Yew. He is one of the, I think, wisest global viewers of this 
century, or last century as well. And he says the U.S. is 
declining and that people in his neighborhood do not believe 
they can rely on the U.S. as they have in the past, although he 
then says that the nature of the American spirit is such that 
he believes the United States will come back. But the 
perception in his neighborhood is we are disappearing fast as a 
make weight in the balance. And that is what begets the 
temptation of disturbers of the peace like North Korea to go 
beyond prudent risk.
    So we are already there. It is a question of when it can be 
reversed, if it can be reversed. And I believe it can. It 
certainly can be reversed.
    The second question about the COCOMs' requirements, their 
responsibility is to assess worst case, and not worst-case 
Armageddon and all-out nuclear war, but in the kinds of things 
that they see in their theater as possible to happen, what 
would they need to win. And they don't just say, sure, what do 
you want, what do you want, what do you want, throw it all in 
the pot. It is very, very heavily staffed. And so what comes 
out is their assessment of their theater in kind of a worst 
case of possible things. And so obviously if you tried to fill 
them all, we would--and, Admiral, you know this far better than 
me--but when I was in the building, if you added up the COCOM 
carrier demands, as the minimum, it was 22 carriers. And so, 
you know, you have to do a bit of optimizing, obviously, and 
you can't meet all the minimum demands of all of the COCOMs.
    Admiral Roughead. I would agree with the Secretary. And I 
would say that, particularly if sequestration takes place and 
is not amended in some way and we go into a year-long 
continuing resolution, I think we are on a very, very rapid 
downturn that will challenge reversibility. And I already 
commented earlier on reversibility. And I think we put too much 
weight on that word.
    If sequestration takes place, the CR is in place for a 
year, you are fundamentally going to have a different Navy than 
the Nation has had since the end of World War II, in my 
opinion. So I think that we are there.
    With regard to COCOM demands, the Secretary has it just 
right, but I believe that that is where the broader strategy 
that the committee is thinking through allows you to weigh that 
risk and why it is so important to have this global view for a 
global Navy for our global interests. And I applaud the 
committee for taking that on.
    Mr. Lehman. Mr. Chairman, just one codicil to that. I agree 
totally with Admiral Roughead, but I hope that this committee 
will not take the view that if they are able to stop sequester, 
which I hope you are able to, that that will solve the problem. 
It won't. Sequestration is simply a symptom and it is a step 
along a path that even before sequestration puts the Navy on 
the decline. Without sequestration, it gives maybe another 6 
months' breathing room. So solving sequestration does not solve 
the problem that the Admiral and I are talking about.
    Mr. Forbes. And we wholeheartedly agree with you. We have 
got really the perfect storm. We have these cuts that have 
already been taken, which have been extraordinary, I believe, 
and I think in many of the situations the budget has been 
driving our strategy instead of the strategy driving the 
budget. We have the continuing resolution, Admiral, that you 
addressed that has been a killer. And then the third thing is 
sequestration. But the fourth thing is the lack of kind of a 
long-term planning so that we can get on the right course. This 
committee is going to try to deal with all of that, you know, 
as we look. And along that way, we will probably call you back 
in and try to pick your brain through the process.
    So thank you both for again your service to our country and 
thanks for being here and sharing with us today. And we are 
adjourned.
    [Whereupon, at 5:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 26, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2013

=======================================================================

      
                   Statement of Hon. J. Randy Forbes

     Chairman, House Subcommittee on Seapower and Projection Forces

                               Hearing on

                         The Future of Seapower

                           February 26, 2013

    I want to welcome all of our members and our distinguished 
panel of experts to today's hearing, that will focus on the 
future of seapower in advance of receiving a budget request for 
fiscal year 2014.
    In January, the Navy presented to Congress a goal of 
achieving a fleet of 306 ships, a reduction from the previous 
goal of 313 ships. The fiscal year 2013-2017 5-year 
shipbuilding plan contains a total of 41 ships, which is 16 
ships less than the 57 ships projected for the same period in 
the fiscal year 2012 budget request. Of this 16-ship reduction, 
9 ships were eliminated and 7 ships were deferred to a later 
time.
    It should be noted that at its current strength of 286 
ships, under the 30-year shipbuilding plan submitted to 
Congress, the Navy will not achieve its goal of 306 ships until 
fiscal year 2039. And given our past record of meeting long-
term goals, I seriously question the viability of the 
shipbuilding plans presented in the out-years of the 30-year 
plan. Even worse, the Navy will experience shortfalls at 
various points in cruisers-destroyers, attack submarines, 
ballistic missile submarines, and amphibious ships. One would 
think the number of required ships would have increased instead 
of decreased with the Navy now bearing the brunt of missile 
defense missions and the announced ``rebalance'' to the Asia-
Pacific.
    Another area of concern is the cost of the plan. The 
Congressional Budget Office estimates that in the first 10 
years of the 30-year shipbuilding plan, that the costs will be 
11% higher than the Navy's estimate. It is because of this 
issue of affordability that I agree with both Secretary Lehman 
and Admiral Roughead on the need for acquisition reform. While 
I think it is critical to provide an environment that provides 
industry some stability to achieve better pricing, I think it 
is equally important to pursue more effective acquisition 
strategies. I look forward to understanding what options our 
Subcommittee could pursue to obtain this needed acquisition 
reform.
    In addition to new construction of ships, I also have 
concerns on the sustainment of ships already in the fleet. 
After years of maintenance challenges, the Navy has now been 
forced to cancel numerous ship maintenance availabilities in 
the third and fourth quarters of this fiscal year due to the 
budgetary constraints of sequestration and the continuing 
resolution.
    The Navy has been operating in a sustained surge since at 
least 2004. We have been burning out our ships more quickly 
because the demand has been high. Indeed, in the past 5 years 
roughly 25% of destroyer deployments have exceeded the standard 
deployment length. A key tenet in the shipbuilding plan is an 
assumed ship service life for most ships of 35 years. If ships 
do not get the planned shipyard repairs, attaining this service 
life will be problematic and ships will be retired prematurely.
    In fiscal year 2012, the existing force structure only 
satisfied 53% of the total combatant commander demand. It has 
been estimated that to fully support the combatant commander 
requirements would necessitate a fleet size in excess of 500 
ships. Without an increase in force structure, this trend will 
only get worse.
    Finally, I think that our Navy needs to place more emphasis 
on undersea warfare and long-range power projection as part of 
a strategy to prevent potential adversaries from achieving the 
benefits offered by anti-access/aerial denial strategies. I am 
particularly interested to better understand what options the 
subcommittee should consider to achieve these goals and ensure 
the combatant commanders have the right tools to achieve our 
national strategy.
    Today we are honored to have as our witnesses, former 
Secretary of the Navy John Lehman and former Chief of Naval 
Operations Gary Roughead. Gentlemen, thank you all for being 
here. 

[GRAPHIC] [TIFF OMITTED] T9949.001

[GRAPHIC] [TIFF OMITTED] T9949.002

[GRAPHIC] [TIFF OMITTED] T9949.003

[GRAPHIC] [TIFF OMITTED] T9949.004

[GRAPHIC] [TIFF OMITTED] T9949.005

[GRAPHIC] [TIFF OMITTED] T9949.006

[GRAPHIC] [TIFF OMITTED] T9949.007

[GRAPHIC] [TIFF OMITTED] T9949.008

[GRAPHIC] [TIFF OMITTED] T9949.009

[GRAPHIC] [TIFF OMITTED] T9949.010

[GRAPHIC] [TIFF OMITTED] T9949.011

[GRAPHIC] [TIFF OMITTED] T9949.012

[GRAPHIC] [TIFF OMITTED] T9949.013

[GRAPHIC] [TIFF OMITTED] T9949.014

[GRAPHIC] [TIFF OMITTED] T9949.015

[GRAPHIC] [TIFF OMITTED] T9949.016

[GRAPHIC] [TIFF OMITTED] T9949.017

[GRAPHIC] [TIFF OMITTED] T9949.018

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. 1) Future threat environments are likely to be 
exceedingly complex, as threat actors acquire significant capabilities 
in the realms of UAVs, cruise missiles, and swarming attacks. I have 
been pleased to note the Navy's increasing investment in the 
technologies that I feel will be needed in these environments, 
especially in fields like directed energy and railguns that promise the 
ability to create diverse effects with minimal magazine requirements, 
thereby greatly increasing time-on-station and combat capability for 
surface combatants in a future conflict. However, such capabilities are 
not without costs in terms of power requirements, cooling capabilities, 
and other factors highly relevant to our discussion of future force 
mixes. Can you speak to the need for such technologies, and in your 
view is the Navy adequately factoring the needs of future high-energy 
systems into its future shipbuilding plans?
    Mr. Lehman. Along with maneuvering ballistic warheads, and 
sophisticated homing torpedoes, these are the principal threats to our 
Navy. None are game-changing and all can be countered, but defensive 
technologies must stay ahead of these evolving threats. R&D accounts 
must be adequate to fund them. It is important however that ships not 
be developed concurrently with new parameter changing systems. The 
power, dimensional and other requirements of these systems should be 
integrated into ships in an evolutionary way. The new destroyer and new 
carrier efforts are sad examples of trying to do too much development 
of new technologies concurrently with ship designs. The record of LHA/
LHD, DDG-51, and Nimitz class are examples of the proper management of 
evolutionary design integration.
    Mr. Langevin. 2) I have been following with great interest the 
development of semiautonomous and autonomous UUVs and USVs designed for 
roles ranging from environmental monitoring to mine-hunting. Can you 
please elaborate on the growing roles of such platforms, and assess how 
well the Navy is leveraging them as it attempts to do more with less?
    Mr. Lehman. These underwater systems, UUVs and USVs can be 
relatively more useful in undersea warfare even than their airborne 
counterparts are to surface and air forces. Remotely piloted versions 
have long been essential to mine-hunting and underwater exploration. 
While the Navy recognizes the promise of these technologies, at a time 
of shrinking budgets, new technologies without existing bureaucratic 
and industry supporters tend to suffer disproportionate cuts and 
cancellations compared to programs with political and bureaucratic 
constituencies. They must be actively protected by Congress.

    Mr. Langevin. 3) Future threat environments are likely to be 
exceedingly complex, as threat actors acquire significant capabilities 
in the realms of UAVs, cruise missiles, and swarming attacks. I have 
been pleased to note the Navy's increasing investment in the 
technologies that I feel will be needed in these environments, 
especially in fields like directed energy and railguns that promise the 
ability to create diverse effects with minimal magazine requirements, 
thereby greatly increasing time-on-station and combat capability for 
surface combatants in a future conflict. However, such capabilities are 
not without costs in terms of power requirements, cooling capabilities, 
and other factors highly relevant to our discussion of future force 
mixes. Can you speak to the need for such technologies, and in your 
view is the Navy adequately factoring the needs of future high-energy 
systems into its future shipbuilding plans?
    Admiral Roughead. [The information was not available at the time of 
printing.]
    Mr. Langevin. 4) I have been following with great interest the 
development of semiautonomous and autonomous UUVs and USVs designed for 
roles ranging from environmental monitoring to mine-hunting. Can you 
please elaborate on the growing roles of such platforms, and assess how 
well the Navy is leveraging them as it attempts to do more with less?
    Admiral Roughead. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
